IN THE SUPREME COURT OF THE UNITED STATES
No.
Viktoria Benkovitch,
Petitioner,
v.
Deutsche Bank National Trust Company, As Trustee
For Holders of The BCAP LLC Trust 2007-AA3,
Respondent.
CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)

I, Viktoria Benkovitch, petitioner and appearing on a pro se basis, hereby
certify that, according to the word-count tool in Microsoft Word, this Petition for Writ
of Certiorari consists of 8,996 words, including footnotes and excluding the sections
enumerated by Rule 33.1(d). The Petition therefore complies with Rule 33.1(g).

VIKTORIA BENKOVITCH
Petitioner
Appearing Pro Se
44 Cotswold Crescent,
Toronto, Ontario, Canada M2P 1N2
Tel: (786) 223-3979
Email: Benkovitch@hotmail.com

37

